<html>
<title> - CHINESE MEDIA RECIPROCITY ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








                 CHINESE MEDIA RECIPROCITY ACT OF 2011

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 2899

                               __________

                             JUNE 20, 2012

                               __________

                           Serial No. 112-110

                               __________

         Printed for the use of the Committee on the Judiciary





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://judiciary.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-643 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


















                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel


























                            C O N T E N T S

                              ----------                              

                             JUNE 20, 2012

                                                                   Page

                                THE BILL

H.R. 2899, the ``Chinese Media Reciprocity Act of 2011''.........     3

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     8

                               WITNESSES

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................     9
  Prepared Statement.............................................    12
John Lenczowski, Ph.D., President, The Institute of World 
  Politics, Washington, DC
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16
Nick Zahn, Asia Communications Fellow, Director of the Washington 
  Roundtable for the Asia Pacific Press, The Heritage Foundation
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Robert L. Daly, Director, Maryland China Initiative, The 
  University of Maryland
  Oral Testimony.................................................    31
  Prepared Statement.............................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............     8

                                APPENDIX
               Material Submitted for the Hearing Record

Addendum to Response of John Lenczowski, Ph.D., President, The 
  Institute of World Politics, Washington, DC, to Question from 
  the Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Member, Subcommittee on Immigration Policy 
  and Enforcement................................................    46

 
                 CHINESE MEDIA RECIPROCITY ACT OF 2011

                              ----------                              


                        WEDNESDAY, JUNE 20, 2012

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:02 p.m., in 
room 2141, Rayburn Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, King, and Lofgren.
    Staff Present: (Majority) Dimple Shah, Counsel; Marian 
White, Clerk; and (Minority) Tom Jawetz, Minority Counsel.
    Mr. Gallegly. I call the Subcommittee on Immigration Policy 
and Enforcement to order.
    Before we do our opening statements, I just want to let 
everyone know, we are probably going to have the bells going 
off around 1:35 for a series of votes. We are going to try to 
get the opening statements and as much of the testimony taken 
as possible. So maybe we can make it before the votes start.
    Today, the hearing is focusing on the Chinese Media 
Reciprocity Act of 2011, introduced by our colleague, U.S. 
Representative Dana Rohrabacher. It amends the Immigration and 
Nationality Act to ensure open and free access by American 
journalists in the People's Republic of China.
    The bill establishes a reciprocal relationship between the 
number of visas issued to state-controlled media workers in 
China and in the United States. The bill builds upon already 
existing law contained within the Immigration and Nationality 
Act. Visas granted to officials and employees who have been 
accredited by the foreign government are issued ``upon a basis 
of reciprocity.''
    However, the system has been anything but reciprocal. In 
the fiscal year of 2010, 650 Chinese citizens entered the U.S. 
with ``I'' foreign media visas. And so far in fiscal year 2011, 
811 Chinese nationals entered the U.S.
    These reporters are agents of the Chinese Government and 
work for a news organization under the control of the Chinese 
Government Communist Party. In contrast, the Broadcasting Board 
of Governors of the United States Government International 
Broadcasting Agency is allowed only two reporters to be 
stationed in Beijing.
    Let us not forget that while the Chinese press has grown, 
it has also remained a tool of the Communist Party. According 
to State Department reports, the United States has let the 
Chinese Communist Party establish a wide network and diverse 
media platform to disseminate their message directly in the 
U.S. At least 14 Chinese state-owned media organizations have a 
presence in the United States, and their operations in the 
United States are subject to many fewer restrictions than the 
operations of American media organizations in China.
    The state-controlled Chinese news agencies are not subject 
to censorship or blockage in America. They can cover any news 
story or express their opinion, any opinion they desire. In 
contrast, Representative Rohrabacher reports that the BBG's two 
correspondents in China, one from Radio Free Asia and the other 
from Voice of America, are harassed by the Chinese police. They 
have been assaulted, detained by the Chinese officials seeking 
to block their work.
    Further, the BBG has its transmissions in China blocked and 
censored. Their website cannot be accessed by China. In 
contrast, every edition of China Daily is available anywhere in 
the United States.
    H.R. 2899 will assist in rectifying the disparity in 
treatment of state-controlled journalists in both China and the 
United States by amending the Immigration and Nationality Act 
to the state I-visas, so that they may only be issued to state-
controlled media workers from Communist China on the basis of 
reciprocity with visas issued to U.S. citizens who are employed 
by the Broadcasting Board of Governors and who seek to enter 
China.
    At this point, I will yield to my colleague from 
California, the Ranking Member, Ms. Lofgren.
    [The bill, H.R. 2899, follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Lofgren. In the interests of time, I would ask 
unanimous consent to put my full statement in the record, and 
will just make a few comments.
    Clearly, there is no doubt that the Chinese Government 
regularly imposes severe restrictions on freedom of the press, 
that the Communist government oppresses its own citizens in 
many, many ways that we find highly objectionable and wrong.
    I understand Mr. Rohrabacher's concern about the disparity, 
and I certainly do not question his motives in proposing this 
measure. I think I disagree, however, with the approach. I 
think if we kick 99 percent of China's journalists out of this 
country, I don't think that is going to make the situation 
better, honestly.
    I think to respond to their oppression of the free press 
with the curtailment of the press strikes me as probably the 
wrong approach. And I think that will not make China better. It 
might make us a little worse.
    And with that, Mr. Chairman, because of the impending 
votes, I will, again, put the rest of my statement in the 
record and look forward to hearing this distinguished panel, 
including our friend and colleague, Mr. Rohrabacher.
    Mr. Gallegly. And without objection, the gentlelady's 
comments and entire testimony will be made a part of the record 
of the hearing.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                 on Immigration Policy and Enforcement
    There are plenty of reasons to be concerned about the relationship 
between the U.S. and China. Late last year, this Subcommittee held a 
hearing on a bill introduced by Rep. Chris Smith that gave us the 
opportunity to examine the Chinese government's dismal human rights 
record.
    That bill, H.R. 2121, authorized the denial of visas to certain 
Chinese nationals in an effort to promote democracy and hold human 
rights violators accountable. I noted at the time that the State 
Department believed it already possessed the visa denial authority 
provided in the bill and that the bill posed foreign policy concerns.
    I approach today's hearing in much the same way that I approached 
that previous hearing. There can be no doubt that the Chinese 
government regularly imposes severe restrictions on the freedom of the 
press. The State Department's country report on China makes it clear 
that virtually all media in China is state-sponsored media. Foreign 
journalists who live and work in China must overcome serious obstacles 
to collect and report the news. According to a survey conducted by the 
Foreign Correspondents Club in China, many foreign journalists and 
their sources face harassment, detention, and intimidation.
    Such journalists also experience visa threats and visa delays, 
which are frequently tied to official concerns about the content of 
their reporting. It is therefore little wonder that American 
journalists affiliated with the Voice of America find it difficult both 
to gain access to China and to perform their duties in China without 
spending an inordinate amount of time and money trying to get around 
government efforts to clamp down on their reporting and broadcasting.
    Still, the purpose of this hearing is to examine H.R. 2899, the 
``Chinese Media Reciprocity Act of 2011.'' The bill compares the 
hundreds of visas granted by the U.S. to Chinese state-sponsored media 
workers with the two visas made available by China to American state-
sponsored media workers. The bill's response to this disparity is to 
revoke visas for hundreds of Chinese journalists and to limit future 
visas for such journalists to the number of similar visas provided by 
China to employees of the Broadcasting Board of Governors (BBG).
    I understand Mr. Rohrabacher's concern that while we grant entry to 
some 800 Chinese state-sponsored journalists, China allows entry to 
only 2 BBG journalists. But this comparison does not include the 
several hundred American journalists reporting from China at any given 
time who do not work for the BBG. It also fails to take into account 
the fact that the BBG is seeking 6 to 8 additional visas for American 
nationals in China. Under this bill, even if China were to provide all 
of the visas sought by the BBG, the U.S. would still be required to 
revoke the visas of 99% of the Chinese journalists who currently have 
permission to work in the U.S.
    I am concerned that despite the best intentions of the bill's 
sponsor, this bill would lead to greater restrictions by China on 
foreign journalists, whether state-sponsored or not. If we kick 99 
percent of China's journalists out of the country, even if they fully 
comply with our requests for state-sponsored journalists, how can we 
expect China not to do the same to our journalists?
    I am also wary of responding to China's free press restrictions by 
erecting our own restrictions on the free press. One of the most 
important and effective ways that America spreads its core values to 
the world is by welcoming people to this country and living by those 
values.
    Essentially, I am concerned that this bill won't make China any 
better, but that it will make America just a little bit worse.
    We have a distinguished panel of experts here today and I look 
forward to hearing their testimony.
                               __________

    Mr. Gallegly. We have four distinguished panel witnesses 
today. Each of the witnesses' written statements will be 
entered into the record in their entirety.
    I ask that each of you summarize within 5 minutes. As you 
know, we are on a tight schedule today, but your entire 
testimony will be made a part of the record of the hearing. We 
have provided you lights down there that will help facilitate 
accomplishing that 5-minute rule.
    Our first witness is our colleague from California, U.S. 
Representative Congressman Dana Rohrabacher. He represents 
California's 46th District and is currently serving his 12th 
term in the U.S. House of Representatives.
    He serves as Chairman of the Oversight and Investigations 
Subcommittee of the House Committee on Foreign Affairs, and 
serves on the House Committee on Science and Technology.
    Prior to serving in Congress, the Congressmen served as 
special assistant to President Ronald Reagan. He received his 
master's degree from USC.
    And with that, welcome, Dana.

 TESTIMONY OF THE HONORABLE DANA ROHRABACHER, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Rohrabacher. Thank you very much. Thank you, Chairman 
Gallegly and Ranking Member Lofgren.
    I appreciate you calling this hearing on the aggressive 
nature of the perception management campaign by the Chinese 
Communist Party as we see it here in the United States of 
America.
    The Chinese Communist Party is attempting to diminish the 
United States as the world's leader. The military arm of the 
CCP, the People's Liberation Army, has been undergoing a rapid 
and alarming buildup and modernization.
    Thanks in large part to an unparallel level of economic 
espionage, enormous investment by U.S. corporations, and having 
been granted most favored nation trading status, the Chinese 
economy has grown at an expansive rate year after year. This 
transfer of wealth and power has been due to the Chinese 
Communist Party's successful use of perception management, 
especially here in the United States.
    This is how they continue to get away with stealing our 
trade secrets, manipulating the currency, receiving millions of 
dollars in foreign aid from the United States. Millions of 
American jobs have been lost due to their successful efforts.
    On the other hand, our Government has had little influence 
within China. While we embrace the free exchange of 
information, in China, the Chinese Communist Party lacks 
legitimacy and maintains its grip on power by organized 
violence and through intimidation.
    The CCP must control information to stay in power, which 
means their power both inside China and their power outside 
China. The Communist Party of China is also afraid of the 
Chinese people learning the truth that it goes to great--and 
they are afraid of the truth, that they go to great ends to jam 
radio broadcasts, censor the Internet, deny visas to Voice of 
America reporters, and interfere with the work of the two Voice 
of America reporters that they do allow to operate in Beijing.
    In contrast, the United States has issued hundreds of I-
visas to Chinese journalists; 811 Chinese entered the United 
States with I-visas in fiscal year 2011 alone. We allow the CCP 
to freely distribute their insidious propaganda without 
interference, including delivering the China Daily right to the 
doors of this building. The CCP would never permit Voice of 
America material to be distributed to the offices of the 
rubberstamp parliament in Beijing.
    A year ago, the largest Chinese Communist Party controlled 
news organization moved their North American headquarters to 
Times Square in New York and introduced an English television 
broadcast service that runs 24 hours a day.
    Additionally, they placed a 60-foot tall advertisement at 
the north end of Times Square, which is estimated to rent at, 
just for that sign alone, $300,000 to $400,000 a month. That 
means, in 1 year, the CCP spends the equivalent of a quarter of 
the VOA's China budget, but just on one sign.
    I am also really concerned that the CCP has over 70 
Confucius Institutes and Confucius Classrooms here in the 
United States. They put teachers and party-approved content 
masquerading as innocent cultural material on U.S. campuses.
    And of course, just a few weeks ago, a Chinese investor, 
using an undisclosed sum of Chinese state funds, bought the AMC 
entertainment movie theater chain. Due to this, the CCP will 
now influence the content of U.S. movies as well.
    So finally, let me just say that the CCP is clearly using 
disinformation to advance nationalistic and hegemonic ends.
    America should not concede this valuable ground to the 
Communist Party. And it is not us trying to accept the idea 
that we are limiting. Let them, if there is going to be 
reciprocity, let them increase the number of people on our side 
that are permitted to come in.
    So the central argument against this, by saying it would 
lead to a suppression of information here, actually, they would 
then be making that determination. We are just simply saying 
reciprocity and just assume have it go up rather than down.
    So I thank you for calling this hearing. And I hope for 
markup as well of H.R. 2899, so that we can have this vote come 
to the floor, and we can alert the American people to how we're 
getting snookered by the Communist Chinese.
    Thank you.
    [The prepared statement of Mr. Rohrabacher follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. The time of the gentleman has expired. Thank 
you for joining us today, Congressman Rohrabacher.
    Now we'll move to the second witness, Dr. John Lenczowski. 
He serves as the founder and president of the Institute of 
World Politics, an independent graduate school of national 
security and international affairs here in Washington, D.C.
    Prior to this, he served in the State Department in the 
Bureau of European Affairs as a special advisor to the 
Undersecretary for Political Affairs.
    Dr. Lenczowski received his master's degree and Ph.D. from 
Johns Hopkins University School of Advanced International 
Studies.
    Welcome, Doctor.

        TESTIMONY OF JOHN LENCZOWSKI, Ph.D., PRESIDENT, 
        THE INSTITUTE OF WORLD POLITICS, WASHINGTON, DC

    Mr. Lenczowski. Thank you, Chairman Gallegly and 
Congresswoman Lofgren.
    I'm honored to share some thoughts about the legislation at 
hand. My concern with the principles underlying this issue 
dates back to the Cold War, and it's a very similar situation.
    Today, we're concerned that China has severely restricted 
visas for our official broadcasters, as we have discussed. This 
last year, in contrast to the only two official correspondents 
we have in Beijing, the State Department granted 868 visas to 
Chinese media representatives.
    The diplomatic principle here, reciprocity, is playing out 
today just as it did in the Cold War. For example, during the 
Cold War, the State Department had more KGB personnel working 
in the U.S. Embassy in Moscow then it had Americans. The 
Soviets had the run of our Embassy and could easily identify 
our intelligence officers and our vulnerabilities.
    In contrast, we had exactly zero Americans working in the 
Soviet Embassy here.
    The State Department's rational for hiring all these KGB 
operatives? It was hard to find housing in Moscow for any more 
Americans.
    In response to this, we created the Office of Foreign 
Missions to enforce reciprocity. If the Soviets gave us trouble 
in securing housing in Moscow, then they would encounter 
similar difficulties here. All of a sudden, housing in Moscow 
became mysteriously available.
    Today, we see Beijing being given lopsided advantages in 
almost every sphere. Just like the Soviets, the Chinese require 
our Embassy and consulates in China to use the Chinese 
diplomatic service bureau with their intelligence service 
assistance, of course, to hire local Chinese solely through 
them.
    The lack of reciprocity extends to numbers of students 
studying in both countries, the number of scientists to do 
research in our national laboratories, the numbers of national 
centers involved in public diplomacy, the numbers of 
intelligence collectors, and other categories.
    Who exactly are China's media representatives? None are 
true professional journalists. The number who even pretend to 
be reporters is a tiny percentage. Some are Communist Party 
propagandists. Most are intelligence operatives with the 
Ministry of State Security, the MSS.
    Most of those officers, under media cover, are agents of 
influence and political counterintelligence officers who work 
in cooperation with the massive Chinese propaganda presence 
here.
    Just part of that presence are the aforementioned 81 
Confucius Institutes in American universities that both conduct 
propaganda and stifle criticism of Chinese policies. In 
contrast, we have only five American centers in China that are 
not independently operated but come under the control of 
Chinese university officials.
    Chinese political counterintelligence officers penetrate 
and harass American organizations that represent groups that 
pose a threat to the Chinese Communist Party. Beijing calls 
these groups the ``Five Poisons.'' They include the Uighurs in 
Xinjing province, the Tibetans, the Taiwanese, the Falun Gong, 
and pro-democracy groups.
    These agents identify critics of the Beijing regime, 
attempt to manipulate their perceptions, and discredit their 
views.
    Here Beijing uses the visa weapon. If you write for a 
publication of any of the ``Five Poisons,'' you are likely to 
be denied a visa to enter China. If your business advertises in 
one of their publications, you will be blacklisted and denied 
business opportunities in China.
    Unfortunately, our foreign policy systematically ignores 
such influence operations and their ability to distort our 
perceptions of reality.
    Chinese propaganda is designed to create a false 
conventional wisdom, influencing not only our media but our 
academic community from which come our future intelligence 
analysts, military officers, and policymakers.
    Here, the Chinese play the visa game. If an American writes 
about China's military, intelligence, or its Laogai slave labor 
system, or other sensitive subjects, they are routinely denied 
visas.
    Once denied a visa, scholars can no longer do fieldwork and 
bolster their credentials by traveling to China. So they censor 
themselves, and the fruit of this self-censorship is ever 
greater lack of knowledge or concern about subjects central to 
U.S. national security policymaking. We saw the identical 
phenomenon in the Cold War.
    Beijing corrupts us in other ways. It contributes to the 
campaigns of American politicians. It uses commercial leverage 
to influence our businesses, and even to blackmail our 
congressional representatives who vote for legislation like 
this, with the threat of the withdrawal of business in their 
districts. They hire former Cabinet members and military 
officers to stifle any criticism.
    I can only scratch the surface of this major national 
security challenge. I entreat this Committee and the Congress 
at large to take this challenge seriously and enforce greater 
reciprocity in the use of visas, so that Chinese influence 
operations can be minimized and U.S. national security can be 
protected. Thank you.
    [The prepared statement of Mr. Lenczowski follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Dr. Lenczowski.
    And as you know, your testimony, all of your written 
testimony, will be part of the record of the hearing.
    Our next witness is Mr. Nick Zahn. Mr. Zahn serves as the 
Asian communications fellow and director of the Washington 
Roundtable for the Asia Pacific Press at the Heritage 
Foundation. He manages the largest organization of Asia and 
Pacific news media in the United States from his office in 
Heritage's Asian Studies Center.
    Mr. Zahn's responsibility is to advance American leadership 
and national security by promoting the organization's policy 
agenda through relationships with international media.
    Mr. Zahn received his bachelor's degree from the University 
of Wisconsin.
    Welcome.

TESTIMONY OF NICK ZAHN, ASIA COMMUNICATIONS FELLOW, DIRECTOR OF 
   THE WASHINGTON ROUNDTABLE FOR THE ASIA PACIFIC PRESS, THE 
                      HERITAGE FOUNDATION

    Mr. Zahn. Thank you, Mr. Chairman.
    The views I express in this testimony are my own and should 
not be construed as representing any official position of the 
Heritage Foundation.
    The Washington Roundtable for the Asian Pacific Press at 
the Heritage Foundation is quite unique among this town's think 
tanks. It is my duty to get to know the Asian media market and 
press corps for purposes of promoting Heritage's work and 
ideas.
    This responsibility has given me a first-hand understanding 
of how these reporters, including China's reporters, operate.
    In preparing my testimony, I've drawn from this daily 
interaction as well as some of Heritage's broader work on 
public diplomacy. And as I look at any comparison between the 
way the U.S. and China handle one another's government-
sponsored press, the single most striking inequity that jumps 
out at me is the number of visas issued. The current imbalance 
is simply unacceptable.
    In 2011, the U.S. Department of State approved 868 visas 
for Chinese state journalists. The Chinese continued the 
abysmal precedent of allowing the Voice of America only two 
visas to work in the People's Republic of China. And as 
mentioned previously, that's 868 to 2.
    China's government has consistently rejected visa 
applications for Radio Free Asia staff since President Bill 
Clinton's 1998 trip when three personnel were denied travel 
into the PRC.
    Compounding the disparity, journalists in China are heavily 
censored. Both at home and abroad, decisions made by the 
Chinese Communist Party about desired coverage or censorship of 
particularly sensitive subjects are issued via the central 
propaganda department or the state council information offices.
    Censorship, of course, is a key concern for the party. The 
party's primary mission for press is to help maintain social 
and political control, especially during sensitive events such 
as the 1989 Tiananmen protests or, more recently, the 2008 
Beijing Olympics, when public opinion guidance was reviewed by 
Chinese president and party general secretary Hu Jintao.
    So last year, in February 2011, when activists in China 
inspired by the Arab Spring called for pro-democracy protests, 
authorities moved security forces quickly to quash protesters 
and the corresponding press coverage to go along with it in 
about a dozen major cities in China.
    For instance, as a Jasmine Revolution protest got underway 
on Sunday, February 27, 2011, our two VOA correspondents in 
Beijing, Stephanie Ho and Ming Zhang, went to downtown Beijing 
to an event site to investigate. Both were detained, 
manhandled, seriously threatened, and humiliated by uniformed 
and plain-clothes Chinese police.
    Ho was pushed and shoved into a small store and hustled 
away in a police van. And although this was his first time 
being detained in Beijing, Zhang had been detained eight times 
outside Beijing since arriving at the bureau in China in 2007.
    So this must change. The U.S. needs to be taken seriously 
as an advocate for liberty and, therefore, must actively 
support the development of an open and objective press corps 
that works to hold governments accountable.
    It has long been hoped that the example of our openness 
would be reciprocated in China, but that has not come to pass. 
There should be reciprocity between the numbers of China's 
state-sponsored media allowed U.S. visas and China's visas 
granted to U.S. Government employee counterparts.
    If it requires revoking or limiting visas of state 
journalists to encourage progress on China's end, that is 
something the U.S. should do. After all, the United States and 
the PRC are in a contest of ideas. We believe in the idea that 
governments exist to protect the rights of the people. Opposing 
that idea is the notion of a government striving to protect 
itself from the people.
    The disparity between the courses our two countries are 
taking must be addressed, and the United States must adjust and 
use all means of diplomacy at its disposal to counter the 
current trend in the imbalance of state-funded press between 
the U.S. and China.
    Elsewise, over time, the prestige of the United States will 
be made to suffer and our influence as a force for good will be 
diminished. And of course, we must not let that happen.
    [The prepared statement of Mr. Zahn follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Mr. Zahn.
    While I welcome Mr. Daly here today, I am going to yield to 
the gentlelady from California, at her request, to make the 
formal introduction.
    Ms. Lofgren. First, actually, I am surprised by that, 
because I didn't know I was making the formal introduction. But 
I did wish to recognize someone who is in our audience here 
today, and that is Isaac, who is Mr. Daly's son, who is 12 
years old and getting a little government lesson here, I hope, 
in the House Judiciary Committee.
    So, we welcome you, Isaac, and I know that your dad is 
going to make you very proud today.
    I would also like to introduce Mr. Daly. I'll be very 
quick.
    He has been the director of the Maryland China Initiative 
at the University of Maryland since 2007. Prior to that, he 
was, for 6 years, the American director of Johns Hopkins 
University and Nanjing University Center for Chinese and 
American Studies.
    He began work on U.S.-China relations as a diplomat for the 
USIA. After leaving the Foreign Service, he taught Chinese at 
Cornell University. And for the next 9 years, he worked on 
television projects in China. He has numerous awards and has 
been recognized and taught at various institutions.
    In the interest of time, I'll simply say welcome, Mr. Daly 
and Isaac, and we look forward to your testimony.
    Mr. Gallegly. Before we go to your testimony, Mr. Daly, I'm 
going to yield myself 30 seconds to introduce a special guest 
of mine today who is also a 12-year-old. His grandmother and 
grandfather are with me. His grandmother has worked for me for 
42 years and is retiring this year, and that's her grandson 
Jake.
    I know she looks like she must've started when she was 6 
years old. But they are both original Washingtonians, but have 
been in California for 50-some years. And the grandfather, Tom 
Shields, is a dear friend who worked for 31 years in the FBI.
    And Jake is here, as Mr. Daly's 12-year-old, learning about 
government here in Washington, DC.
    So we welcome you, and with that, Mr. Daly, welcome

     TESTIMONY OF ROBERT L. DALY, DIRECTOR, MARYLAND CHINA 
             INITIATIVE, THE UNIVERSITY OF MARYLAND

    Mr. Daly. Thank you, Chairman Gallegly, and thank you, 
Ranking Member Lofgren, for convening this hearing on media 
reciprocity with the People's Republic of China.
    I am sympathetic with what I take to be the impetus for 
this legislation. There is, in fact, much that is galling, as 
all of you have already recounted, in China's conduct of its 
public diplomacy and in the limitations it places on our 
journalists working in China.
    China's unblinking disregard for reciprocity should be of 
concern to the Congress and should be the subject of 
representations by members of the legislative and executive 
branches who conduct our relations with China.
    Still, the retaliatory approach that H.R. 2899 takes to 
these issues, I believe, is counterproductive. Its enactment 
would exasperate problems it seeks to correct and would cast 
doubt on America's commitment to the free flow of ideas.
    The proposal we are considering today is that U.S. expel 
all or all but two Chinese journalists within 30 days of the 
bill's enactment. ``America expels China's journalists'' will 
be the headline in China and around the world if this bill 
becomes law.
    This retaliatory approach would cast the United States not 
as the defender of reciprocity and press freedom, but as 
fearful, shortsighted, and cynical about values this law 
exemplified.
    The most striking difficulty with the retaliatory approach 
is that it considers only the activities of Chinese and 
American journalists employed by their respective states, 
ignoring the work of the 200 or so Americans employed by 
commercial media in China. Because the label of ``government 
journalist'' can be rightly applied to all Chinese journalists 
in America, their numbers should be compared to those of all 
American journalists working in the PRC and not just to the 
number dispatched by the Broadcasting Board of Governors.
    But even comparing the total number of government and 
commercial journalists in each country misses the point. Our 
goal need not be numerical parity. What we seek is an 
international regime in which all countries may send as many 
journalists as they desire and can afford to other nations, and 
in which those journalists may report freely.
    Beijing accredits only two BBG journalists, but even if an 
unlimited number were allowed to work in the PRC, VOA would 
only wish to send six to 10 reporters to China. That doesn't 
solve the reciprocity issue.
    Not only does the proposed legislation ignore the work of 
American commercial journalists. It ignores the complexity of 
modern information networks that shape the public perceptions 
that we are concerned with here today.
    Americans learn about China from professional journalists 
stationed there, but also from nonaccredited stringers, 
writers, and travelers; from corporate reports and academic 
research; from analyses by government agencies, NGOs, think 
tanks, and multilateral organizations; and from a growing body 
of material from China itself and from third countries.
    American and foreign bloggers and websites that cover China 
round out what is now a dynamic array of information sources 
whose output already exceeds the assimilating capacity of any 
one reader or any one government.
    While the Communist Party does strive, as you've heard 
today, to limit the Chinese people's access to information, the 
Chinese people, in fact, have a wide range of news sources, 
accurate and inaccurate, censored and uncensored. Tech-savvy 
Chinese, especially those who can read English, can gain 
access, although with some difficulty, to the same array of 
information that we enjoy.
    So when we consider the full range of international 
information sources and, very importantly, when we take account 
of the fact that America, despite being grossly overspent by 
the Chinese Government, America, in fact, has vastly more 
influence on Chinese perceptions and culture than the Chinese 
Communist Party has on American views and tastes, it is not 
clear to me which problem H.R. 2899 seeks to solve. Nor is it 
clear how expelling China's journalists would advance the cause 
of press freedom.
    Expelling China's journalists would provoke a protracted 
and ugly series of reciprocal expulsions. In the unlikely event 
that Beijing declined to expel our journalists, its restraint 
would allow it to seize the moral high ground while portraying 
the United States as fearful of scrutiny by Chinese media.
    And we should bear in mind that Chinese journalists are the 
primary source of information on the United States for most 
Chinese readers and viewers. Many of their reports, in fact, 
are comprehensive and fair. This is in fact because many of the 
reports are simply translations from American media, which are 
republished in Chinese.
    It is in our interests that the Chinese receive the 
information that these reporters provide, even though some of 
it is biased and inaccurate.
    Many Chinese writers and editors here in America, impressed 
by their experience in the United States, push for greater 
scope and objectivity in Chinese reporting. As advocates for 
greater press freedom in China, they're more effective than 
American activists and more effective than they could be if 
they were not allowed to work here. Expelling them would cut 
off one of our best channels for promoting press freedom in 
China.
    But what is most worrisome in the retaliatory approach is 
its suggestion that America conduct its public diplomacy on 
China's terms, competing to see which nation is more willing to 
restrict media rather than on the American model of promoting 
an unfettered exchange of ideas.
    If we trade the American paradigm for the Chinese approach, 
we abandon the openness that is the key source of our global 
influence. If we retain our confidence in the American model, 
then we can continue to inspire the Chinese people to push for 
greater freedom.
    That is what our media and our public diplomacy have done 
successfully, although not to our complete satisfaction, for 
the last 30 years.
    [The prepared statement of Mr. Daly follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


    Mr. Gallegly. Mr. Daly, your time has--okay, I appreciate 
you summarizing.
    With that, I would like to open the questioning. We are 
going to be voting in less than 10 minutes, so I'm going to try 
to get at least one question of each Member, so we won't have 
to call you all back, since there is a series of votes.
    Mr. Lenczowski, in your testimony you cite historical 
examples of how absence of reciprocity between the U.S. and 
Russia was a national security concern. Do you think that the 
lack of reciprocity between the U.S. and China poses a similar 
national security concern? And if so, could you give us, in a 
very summarized way, how you would address that issue?
    Mr. Lenczowski. Thank you, sir.
    I think this is all about national security. That is what 
this is all about. This is about the problems of perceptions 
management and the corruption of American accurate perceptions 
of what is going on in China. There are very few Sinologists in 
the United States compared to the number of Sovietologists 
during the Cold War. The few that are able to talk about 
sensitive subjects are extremely limited in number. And one of 
the problems is that they are even corrupted in other ways in 
this entire process.
    For example, there is a major think tank in this town that 
had a prominent China military analyst. A big donor to that 
think tank, who had major China business interests, didn't like 
the accurate and clinical analysis that was coming out of that 
China military analyst and arranged to have him fired, because 
he didn't want Americans to become alarmed by China's military 
buildup, and which might rock the boat in U.S.-China relations 
and harm his business interests.
    So the guy was fired, was given hush money, and went on to 
other another think tank, where two trustees, who were major 
donors of that think tank, threatened to resign and withhold 
their financial support if that analyst was kept on there.
    This type of corruption is just unbelievable. And it is 
going on. And the problem is the general principle of lack of 
reciprocity on all of these different matters has a huge effect 
on self-censorship, as I mentioned, by academics and 
journalists.
    And so there is a fundamental perceptions management 
problem here, which seriously affects our ability as a Nation 
to hear the truth about what China is doing, not only in its 
human rights practices internally but its aggressive activities 
abroad, its military buildup, and its massive intelligence 
presence in this country.
    There are probably tens of thousands of Chinese 
intelligence operatives in this country, because of the style 
of intelligence collection.
    I don't disagree with Dr. Daly when he talks about the 
desire of enhancing public diplomacy and representing the free 
flow of information. My problem here is that most of these 
people are not real journalists.
    They are political counterintelligence officers. They are 
engaged in influence operations here in this country. And what 
we are talking about here, to a large extent, is reciprocity 
when it comes not just to journalists but to intelligence 
officers.
    The number of Chinese media representatives in this country 
who are actually writing and editing stories is miniscule. 
There are very, very few stories and broadcasts coming out of 
these people. What are the rest of them doing here? They are 
engaging in activities that exceed the proper bounds of their 
media representation or of diplomatic representation.
    This is an intelligence problem. It is a perceptions 
management problem. It is a fundamental subversion of what 
we're trying to do in this country. During the Cold War, we had 
some massive expulsions of Soviet intelligence officers. I see 
no problem with an analogous expulsion of Chinese intelligence 
officers who are not only engaging in perceptions management 
and the subversion of our accurate perceptions of reality, but 
are also engaging in the massive theft of our intellectual 
property, which is completely arranged for their huge military 
buildup of asymmetrical capabilities that are becoming a 
meaningful potential threat to the United States.
    Mr. Gallegly. Thank you very much, Dr. Lenczowski, and I 
certainly concur with the concerns about intellectual property, 
among other things.
    At this point I yield to the gentlelady and Ranking Member, 
Ms. Lofgren.
    Ms. Lofgren. Thank you very much, Mr. Chairman. I will be 
brief.
    In terms of the reciprocity issue, I'm not sure that that 
is the right approach. But if I'm reading the materials 
correctly, if we had the approval of every application we made, 
it wouldn't be 20. And so really what we're saying is, we would 
have to--you know what that is? People get very nervous when 
the room shakes. That is actually trash compacting down in the 
basement. So don't worry about it.
    This bill, if it became law, would simply require the 
revocation of hundreds of visas, and I'm not sure, Mr. Daly, as 
you've mentioned, that that's the right message we want to 
give.
    I mean, if, as Mr. Lenczowski has said, there is theft of 
intellectual property, we ought to arrest them and prosecute 
them. I'm not a supporter of what the Chinese Government does. 
They are an oppressive, communist regime, and they are not our 
friends. That is not the issue.
    The question is how best to deal with this dangerous rival.
    And I guess the question I have for you, Mr. Daly, is, if 
this bill is not the answer, what are your suggestions about 
positive steps we could take to address legitimate concerns 
about reciprocity, but also what steps could we take to 
increase the flow of free information about freedom into China?
    Mr. Daly. Thank you.
    First, I think that as anybody who's been to China, has 
spent some time there, and who knows the media environment, 
will realize, while it remains censored and while it is 
restricted, it is, nevertheless, more free all the time, fairly 
dynamic. And there are a number of American media outlets that 
have a regular presence in China. Sports illustrated is in 
Chinese. The Harvard Business Review is in Chinese. It's freely 
accessible. More popular magazines, like National Geographic, 
things like Cosmopolitan, are available.
    There are groups in China that translate every single 
article in every edition of the British Economist into Chinese 
and make it available. So there is, in fact, a lot of 
information out there already.
    Nevertheless, I do think that these are serious issues and 
that we do need to take some of the steps that have been 
recommended.
    Reciprocity should be a prominent issue in our China 
agenda. The President, members of the Cabinet, Members of 
Congress who deal with China, should regularly raise the issues 
that have been raised here today--numbers of journalists, the 
access that they enjoy--in public and private meetings with the 
Chinese. We should call them out on this regularly, as we do on 
intellectual property violations and human rights violations.
    Elevating reciprocity as an issue would also have the 
advantage of reminding Americans that the China Daily 
supplements in the Washington Post and the New York Times, and 
that the CCTV channels, are, in fact, Chinese Communist Party 
organs.
    Secondly, if we are concerned, as has been mentioned here 
today, with prevailing in a public diplomacy competition with 
China, then we have to train a large number of experts in a 
range of professions who are fluent in Chinese and 
knowledgeable about Chinese history and Chinese culture. So I 
think that Congress does have an opportunity to provide 
enhanced support for K-12 Chinese language curriculum, for 
100,000 Strong, for university programs that train the 
personnel we need.
    We can also provide enhanced support for VOA's Chinese 
language broadcasts. Currently, VOA has limited broadcast 
hours. There is a chance to enhance that and to also improve 
the style of VOA.
    Ms. Lofgren. Can I ask you a question in terms of these 
publications that are being translated into Chinese? One of the 
concerns that we have about what China does is to try to keep 
their citizens from accessing information on the Internet, by 
blocking and the like.
    To your knowledge, is this information, has it been blocked 
by the Chinese Government? And do you think that the more--we 
helped fund Tor and other mechanisms for people to avoid the 
censorship through good technology. Do you think that would be 
a positive step forward?
    Mr. Daly. China does block VOA broadcasts. It blocks 
Facebook, YouTube, Twitter, American commercial media. It could 
have an immediate and profound impact.
    It blocks these websites because its American-style press 
freedom would, in fact, pose an existential threat to the 
Chinese Communist Party. That is true.
    But the Chinese are also adept at getting around the Great 
Firewall. Voice of American programs are posted on the VOA. 
They get comments from China by the thousands.
    Ms. Lofgren. My time is up. I would just thank the Chairman 
for this hearing and suggest that at some point we might want 
to actually have a briefing on Tor, because it is something we 
helped fund, but it is a way to get around censorship that is 
very exciting.
    Thank you, Mr. Chairman.
    Mr. Gallegly. I thank the gentlewoman.
    I would ask a special request of my good friend from Iowa, 
Mr. King. Would you expedite your questions, because we have 
three votes, and I don't want to come back?
    Mr. King. How much time is left on the clock, Mr. Chairman?
    Mr. Gallegly. Would you like 3 minutes?
    Mr. King. Just a point of information, how much time is 
left on the vote clock on the floor?
    Mr. Gallegly. It's a 15-minute vote.
    Mr. King. They just called it now?
    Mr. Gallegly. About 2 minutes ago.
    Mr. King. So it will be more than 5 minutes, and I think I 
can get that done. Thank you.
    Now thank you, Mr. Chairman, for recognizing me and for 
this hearing. It is interesting testimony that has come before 
this panel.
    It causes me to think a little bit about the broader 
implications. I'm one who has advocated for a level of 
reciprocity in a number of areas. This reciprocity advocated 
for the press personnel, this is a great big subject. And when 
you think in terms of 1 million visitors from China each year, 
which Dr. Lenczowski has testified to, and you think about how 
many agents can be needles in that haystack, I think that that 
is really interesting testimony.
    Then I look back at some of the other things that we have. 
Religious workers visa, I actually have a bill that requires 
reciprocity for religious workers. And it recognizes not 
necessarily that China is a big problem there, since the 5,000 
religious workers, but religious workers can come from Saudi 
Arabia, but it's very, very difficult, if even possible, to 
bring a Bible into Saudi Arabia. I think there should be a 
religious workers reciprocity policy as well.
    The subject was brought up about the intellectual property 
theft, and the broad effort on the part of the Chinese piracy 
of intellectual property. And that is patents, trademarks and 
copyrights alluded to earlier in this testimony or in the 
response. And we had the massive effort to steal American 
intellectual property and incorporate it into the national 
defense scheme of the Chinese.
    Then I think also a bill that passed out of this Committee, 
the Chairman of the Committee--excuse me--the sponsor of the 
bill was Mr. Chaffetz of Utah. And it eliminated the per 
country cap in certain visa categories, which was the diversity 
cap, so that we get a representation from multiple countries 
across the world. I opposed the bill.
    I was one of, maybe the only Republican, to oppose the 
bill, because it looked to me like it could all be Chinese 
coming in under those visa categories that were changed.
    So I am suggesting this, as I listen to this testimony, 
that has brought some of this together for me, I support this 
bill that Mr. Rohrabacher has brought. I support the 
international viewpoint that he brings to the United States 
Congress.
    And I also would ask if there be consideration, perhaps, to 
roll all these reciprocity things together, so that America can 
have a reasonable opportunity of competing in the world. The 
bill that deals with intellectual property that I have 
introduced, what it does is, and I wrote this bill from Beijing 
after they had toasted our delegation in multiple cities with 
the same talking points each time, which was we're going find 
some people that are stealing intellectual property and 
eventually we will bring felony charges against them and lock 
them up. And I asked who was locked up and who's been fined and 
are they state-owned businesses, so if they pay a fine, it 
comes out of one pocket into another. That is what happens in 
China.
    So I wrote a bill that directed the U.S. Trade 
Representative to conduct a study to determine the value of the 
loss of U.S. intellectual property due to Chinese piracy, and 
directed them to apply a duty on all Chinese imports in an 
amount equal to recover that loss of value of intellectual 
property and an administrative fee in order to distribute those 
funds back to the proper holders of that intellectual property.
    That is one of those things when you say, go ahead and 
steal intellectual property, but we're going to charge you back 
for it, so keep stealing and we'll keep the money and send it 
to the people that own the copyrights, the patents, and the 
trademarks.
    I support the issue with the press. I think the United 
States should be a lot smarter. We are an open society that 
allows access to every aspect of our society.
    Al Qaeda has taken advantage of that, as have the Chinese, 
as have our enemies continually. It is amazing to me that our 
Founding Fathers could have such wisdom and foresight, and we 
could have such current day blind sight on this issue.
    So I raise again the issue of the per country cap. I 
believe to eliminate that per country cap in Chaffetz bill was 
a mistake. It opens the door to the Chinese.
    And I would ask consideration to put all these reciprocity 
things together, so that America can compete on a level playing 
field.
    Then I would just throw out a question to--since I'm 
advised not to ask Representative Rohrabacher a question, but 
to Dr. Lenczowski, to just import to this Committee, if you 
could, the things that you didn't have an opportunity to say.
    And then at that point, I would yield back to the Chairman, 
so we can go vote. Thank you.
    Mr. Lenczowski. I very much appreciate, Congressman King, 
your remarks.
    And indeed, this really is an issue which is much larger 
than just the media issue. And I am sympathetic to the fact 
that perhaps this bill may indeed risk making us look a little 
bit like we are afraid of free-flowing information and so on 
and so forth.
    The problem here is that our foreign-policy authorities 
have been incredibly imprudent in how they are managing our 
overall relations with China. This is the central problem. It 
is just the way it was with the Soviet Union.
    It was incredible, the lack of reciprocity in things that 
we did with Moscow. We let them cheat on all their arms control 
agreements. They had a strategy to cheat on all their arms 
control agreements, and we lived by ours. There was no 
reciprocity there.
    [See Appendix for addendum to the response of Mr. 
Lenczowski]:
    Mr. Gallegly. Dr. Lenczowski, I apologize for interrupting 
you, but the clock is going.
    If you would be kind enough to put your full answer, and 
make that available to the Committee, I would be grateful. We 
will make it a part of the record of the hearing.
    And with that, I will thank our witnesses all for being 
here.
    Without objection, I ask that all Members will have 5 
legislative days to submit to the Chair additional written 
questions for the witnesses, which will be forwarded, and ask 
the witnesses to respond in a timely fashion, so we can make 
them a part of the record of the hearing.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for infusion in the record.
    Ms. Lofgren. And I would just say I am glad that we won the 
Cold War.
    Mr. Gallegly. That is a good thing.
    And with that, I thank you all for being here, and the 
Subcommittee stands adjourned.
    [Whereupon, at 1:52 p.m., the Subcommittee was adjourned.]











                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
